                                      A MESSAGE FROM THE
                                       INSPECTOR GENERAL
I am pleased to present this Semiannual Report to Congress on the
activities and accomplishments of the Nuclear Regulatory Commission
(NRC) Office of the Inspector General (OIG) from October 1, 2007, to
March 31, 2008.

Our work reflects the legislative mandate of the Inspector General Act
which is to identify and prevent fraud, waste, and abuse through the con-
duct of audits and investigations relating to NRC programs and operations.
The audits and investigations highlighted in this report demonstrate our
commitment to ensuring integrity and efficiency in NRC’s programs and
operations.

During this semiannual reporting period, we issued 9 program audit reports and analyzed
2 contract audit reports. As a result of this work, OIG made recommendations to improve the
effective and efficient operation of NRC’s safety, security, and corporate management programs.
OIG also opened 35 investigations, and completed 29 cases. Seven of the open cases were referred
to the Department of Justice, and 18 allegations were referred to NRC management for action.

I would like to acknowledge our auditors, investigators, and support staff for their superior work
and commitment to the mission of our office. I also want to congratulate the members of my audit
staff who recently received the “Award for Excellence in Audit” issued by the President’s Council on
Integrity and Efficiency. This award was received for their noteworthy work in identifying weak-
nesses and recommending enhancements to the program used by NRC to evaluate the performance
of nuclear power plants security efforts.

Finally, the success of the NRC OIG would not be possible without the collaborative work between
my staff and agency managers to address OIG findings and implement the recommendations made
by my office. I wish to thank them for their dedication and support, and look forward to their con-
tinued cooperation as we work together to ensure the integrity of agency operations.




Hubert T. Bell
Inspector General




                                                                                                 i
                                                                   October 1, 2007 – March 31, 2008
ii
NRC OIG Semiannual Report
                                                                                                CONTENTS
Highlights ...................................................................................................................v
OIG Organization and Activities . ..........................................................................1
	     NRC’s Mission .....................................................................................................1
	     OIG Mission and Strategies ...............................................................................2
		          Inspector General History ...........................................................................2
		          OIG Mission ..................................................................................................2
		          Audit Program ...............................................................................................3
		          Investigative Program ...................................................................................4
	     OIG General Counsel Activities . ......................................................................6
		          Regulatory Review ........................................................................................6
	     Special Feature Article.........................................................................................7
		          Follow-up to Report on NRC’s Oversight of
		          Byproduct Materials.......................................................................................7
	     Other Activities.....................................................................................................9
		          NRC OIG Receives PCIE Award for Excellence........................................9
Audits .......................................................................................................................11
	     Audit Summaries . .............................................................................................11
	     Audits In Progress .............................................................................................17
Investigations ...........................................................................................................20
	     Investigative Case Summaries .........................................................................20
Statistical Summary of OIG Accomplishments .................................................26
	     Investigative Statistics .......................................................................................26
	     Audit Listings . ...................................................................................................28
	     Audit Resolution Activities ..............................................................................30
Abbreviations and Acronyms . ..............................................................................34
Reporting Requirements . ......................................................................................35




                                                                                                                                   iii
                                                                                            October 1, 2007 – March 31, 2008
iv
NRC OIG Semiannual Report
                                                                       HIGHLIGHTS
The following two sections highlight selected audits and investigations completed
during this reporting period. More detailed summaries appear in subsequent
sections of this report.

AUDITS
•	 The Chief Financial Officers Act requires OIG to annually audit NRC’s
   principal financial statements. An independent public accounting firm
   conducted the audit with OIG oversight.
•	 Alternative Dispute Resolution (ADR) is a term that refers to a number of
   processes, such as mediation, which can be used to resolve disputes between
   parties. Through the Office of Enforcement, NRC developed a pilot program
   to evaluate whether the use of ADR could provide greater flexibility in the
   enforcement process, more timely and economical resolution of issues, more
   effective outcomes, and improved relationships. OIG audited this program to
   determine if the enforcement-related ADR program is complete and ready for
   full implementation. In addition, OIG audited a contract for ADR services
   to determine if it had appropriate internal controls.
•	 Cybersecurity refers to the branch of security that protects information tech-
   nology (IT) infrastructure. IT infrastructure encompasses not only the public
   internet, but also the less visible systems and connections of the Nation’s critical
   infrastructures, such as nuclear power plants and electric power distribution
   grids. Cyber attacks can temporarily disrupt computer networks, or more
   seriously, cause failure of public services. The objective of this audit was to
   determine how upcoming changes to NRC’s cybersecurity oversight processes
   might impact the agency’s oversight at licensee facilities.
•	 Licensees take various measures to ensure that their security officers are
   mentally and physically fit, professionally competent, and sufficiently trust-
   worthy to carry out their duties at nuclear power plants. NRC exercises
   oversight of licensees’ security officers primarily through the Reactor Over-
   sight Process’s physical protection cornerstone. OIG audited this program to
   assess NRC’s oversight of security officers employed by licensees to protect
   nuclear power plants.
•	 NRC regulates the maximum power level at which a commercial nuclear
   power plant may operate. The process of increasing the maximum power
   level at which a plant may operate is called a power uprate. Licensees seek

                                                                                                     v
                                                                         October 1, 2007 – March 31, 2008
                      permission to perform a power uprate by submitting a license application
                      amendment to NRC. Since 1977, NRC has approved 118 power uprates and
                      anticipates as many as 24 power uprate applications during the next 5 years.
                      The objective of this audit was to examine the process for reviewing and ap-
                      proving power uprate amendment applications.

                   INVESTIGATIONS
                   •	 OIG completed a special inquiry in response to concerns pertaining to
                      Hemyc fire barriers. Hemyc is a fire barrier that has been installed in
                      operating nuclear power plants since the 1980s and is currently installed
                      at 15 nuclear reactors in the United States. Concerns focused on Hemyc’s
                      failure to provide the level of protection expected for a 1-hour rated fire
                      barrier during confirmatory testing sponsored by NRC in 2005. Additional
                      concerns pertained to whether NRC staff were aware of problems with Hemyc
                      prior to 2005, even as far back as 1994, and whether the staff acted to address
                      these problems.
                   •	 OIG completed an investigation into the misuse of the NRC e-mail system by
                      an NRC contractor employee who placed a software monitoring program on
                      a privately-owned computer so that he could monitor, via his NRC computer,
                      the other computer’s e-mail and web-browsing activity.
                   •	 OIG conducted an investigation into whether an NRC staff member was
                      pressured by NRC management to change his written testimony to the NRC
                      Atomic Safety Licensing Board Panel that concluded the steel containment
                      liner at Oyster Creek Nuclear Generating Station was structurally sufficient
                      and met regulatory standards.
                   •	 OIG conducted an investigation concerning incorrect deductions that were
                      taken from the agency’s payments to an NRC contractor.
                   •	 OIG completed an investigation pertaining to NRC’s involvement in an im-
                      proper settlement agreement between a whistleblower and an NRC nuclear
                      power plant licensee and the related understanding of the ADR process by
                      agency offices.




vi
NRC OIG Semiannual Report
   OIG ORGANIZATION AND ACTIVITIES
NRC’S MISSION
The U.S. Nuclear Regulatory Commission (NRC) was formed in 1975 to regulate
the various commercial and institutional uses of nuclear materials by the Energy
Reorganization Act of 1974. The agency succeeded the Atomic Energy Com-
mission, which previously had responsibility for both developing and regulating
nuclear activities.

NRC’s mission is to regulate the Nation’s civilian use of byproduct, source, and
special nuclear materials to ensure adequate protection of public health and safety,
promote the common defense and security, and
protect the environment. NRC’s regulatory mis-
sion covers three main areas:

Reactors - Commercial reactors for generating
electric power and research and test reactors
used for research, testing, and training.

Materials - Uses of nuclear materials in medical,
industrial, and academic settings and facilities
that produce nuclear fuel.

Waste - Transportation, storage, and disposal
of nuclear materials and waste, and decommis-        NRC Headquarters, Rockville, MD.
sioning of nuclear facilities from service.

Under its responsibility to protect public health and safety, NRC has three principal
regulatory functions: (1) establish standards and regulations, (2) issue licenses
for nuclear facilities and users of nuclear materials, and (3) inspect facilities and
users of nuclear materials to ensure compliance with the requirements. These
regulatory functions relate to both nuclear power plants and other uses of nuclear
materials – like nuclear medicine programs at hospitals, academic activities at
educational institutions, research work, and such industrial applications as gauges
and testing equipment.

NRC places a high priority on keeping the public informed of its work. The
agency maintains a current Web site and a public document room in Rockville,

                                                                                                  1
                                                                       October 1, 2007 – March 31, 2008
                   Maryland (NRC headquarters) and holds public hearings, public meetings in local
                   areas and at NRC offices, and discussions with individuals and organizations.

                   OIG MISSION AND STRATEGIES
                   Inspector General History

                   In the 1970s, Government scandals, oil shortages and stories of corruption covered
                   by newspapers, television, and radio stations took a toll on the American public’s
                   faith in its Government. The U.S. Congress knew it had to take action to restore
                   the public’s trust. It had to increase oversight of Federal programs and opera-
                   tions. It had to create a mechanism to evaluate the effectiveness of Government
                   programs. Also, it had to provide an independent voice for economy, efficiency
                   and effectiveness within the Federal Government that would earn and maintain
                   the trust of the American people.

                   In response, President Jimmy Carter in 1978 signed into law the landmark legisla-
                   tion known as the Inspector General Act (IG Act). The IG Act created independent
                   Inspectors General (IGs), who would: protect the integrity of Government; im-
                   prove program efficiency and effectiveness; prevent and detect fraud, waste and
                   abuse in Federal agencies; and keep agency heads, Congress, and the American
                   people fully and currently informed of the findings of the IGs’ work.

                   Almost 30 years later, the IG concept is a proven success. The IGs continue to
                   deliver significant benefits to our Nation. Thanks to IG audits and inspections,
                   billions of dollars have been returned to the Federal Government or have been
                   better spent based on recommendations identified through those audits and in-
                   spections. IG investigations have also contributed to the prosecution of thousands
                   of wrongdoers. In addition, the IG concept of good governance, accountability
                   and monetary recoveries encourages foreign governments to seek our advice, with
                   the goal of replicating the basic IG principles in their own governments.

                   OIG Mission

                   NRC’s OIG was established as a statutory entity on April 15, 1989, in accordance
                   with the 1988 amendment to the IG Act. NRC OIG’s mission is to (1) indepen-
                   dently and objectively conduct and supervise audits and investigations relating
                   to NRC programs and operations; (2) prevent and detect fraud, waste, and abuse;

2
NRC OIG Semiannual Report
and (3) promote economy, efficiency, and effectiveness in NRC programs and
operations.

OIG is committed to ensuring the integrity of NRC programs and operations.
Developing an effective planning strategy is a critical aspect of accomplishing
this commitment. Such planning ensures that audit and investigative resources
are used effectively. To that end, OIG developed a Strategic Plan that includes
the major challenges and critical risk areas facing NRC.

The plan identifies the priorities of OIG and establishes a shared set of expecta-
tions regarding the goals OIG expects to achieve and the strategies that will be
employed to do so. OIG’s Strategic Plan features three goals which generally align
with NRC’s mission and goals:

1.	 Advance NRC’s efforts to enhance safety and protect the environment.

2.	 Enhance NRC’s efforts to increase security in response to the current threat
    environment.

3.	 Improve the economy, efficiency, and effectiveness of NRC corporate
    management.

Audit Program

The OIG Audit Program covers the management and financial operations, econ-
omy or efficiency with which an organization, program, or function is managed
and program results achieved. For this program, auditors assess the degree to
which an organization complies with laws, regulations, and the internal poli-
cies in carrying out programs, and they test program effectiveness as well as the
reasonableness and reliability of financial statements. The overall objective of
an audit is to identify ways to enhance agency operations and promote greater
economy and efficiency. Audits comprise four phases:

•	 Survey phase - An initial phase of the audit process is usually to gather infor-
   mation, without detailed verification, on the agency’s organization, programs,
   activities, and functions. An assessment of vulnerable areas determines whether
   further review is needed.



                                                                                                3
                                                                     October 1, 2007 – March 31, 2008
                   •	 Verification phase - Detailed information is obtained to verify findings and
                      support conclusions and recommendations.

                   •	 Reporting phase - The auditors present the information, findings, conclusions,
                      and recommendations that are supported by the evidence gathered during the
                      survey and verification phases. Exit conferences are held with management
                      officials to obtain their views on the issues in the report. Comments from the
                      exit conferences are presented in the published audit report, as appropriate.
                      Formal written comments are included in their entirety as an appendix in
                      the published audit report.

                   •	 Resolution phase - Positive change results from the resolution process in
                      which management takes action to improve operations based on the recom-
                      mendations in the published audit report. Management actions are monitored
                      until final action is taken on all recommendations. When management and
                      OIG cannot agree on the actions needed to correct a problem identified in an
                      audit report, the issue can be taken to the NRC Chairman for resolution.

                   Each September, OIG issues an Annual Plan that summarizes the audits planned
                   for the coming Fiscal Year (FY). Unanticipated high priority issues may arise that
                   generate audits not listed in the Annual Plan. OIG audit staff continually monitor
                   specific issues areas to strengthen OIG’s internal coordination and overall planning
                   process. Under the OIG Issue Area Monitor (IAM) program, staff designated as
                   IAMs are assigned responsibility for keeping abreast of major agency programs
                   and activities. The broad IAM areas address nuclear reactors, nuclear materials,
                   nuclear waste, international programs, security, information management, and
                   financial management and administrative programs.

                   Investigative Program

                   OIG’s responsibility for detecting and preventing fraud, waste, and abuse within
                   NRC includes investigating possible violations of criminal statutes relating to
                   NRC programs and activities, investigating misconduct by NRC employees, in-
                   terfacing with the Department of Justice on OIG-related criminal matters, and
                   coordinating investigations and other OIG initiatives with Federal, State, and
                   local investigative agencies and other OIGs. Investigations may be initiated as a
                   result of allegations or referrals from private citizens; licensee employees; NRC
                   employees; Congress; other Federal, State, and local law enforcement agencies;

4
NRC OIG Semiannual Report
OIG audits; the OIG Hotline; and IG initiatives directed at areas bearing a high
potential for fraud, waste, and abuse.

Because NRC’s mission is to protect the health and safety of the public, one of the
Investigation unit’s main focus and use of resources is investigations of alleged
conduct by NRC staff that could adversely impact the agency’s handling of matters
related to health and safety. These investigations may include allegations of:

•	 Misconduct by high ranking NRC officials and other NRC officials, such as man-
   agers and inspectors, whose positions directly impact public health and safety.

•	 Failure by NRC management to ensure that health and safety matters are
   appropriately addressed.

•	 Failure by NRC to appropriately transact nuclear regulation publicly and can-
   didly and to openly seek and consider the public’s input during the regulatory
   process.

•	 Conflict of interest by NRC employees with NRC contractors and licensees
   involving such matters as promises of future employment for favorable or
   inappropriate treatment and the acceptance of gratuities.

•	 Fraud in the NRC procurement program involving contractors violating
   Government contracting laws and rules.

OIG has also implemented a series of proactive initiatives designed to identify
specific high-risk areas that are most vulnerable to fraud, waste, and abuse. A
primary focus is electronic-related fraud in the business environment. OIG is
committed to improving the security of this constantly changing electronic busi-
ness environment by investigating unauthorized intrusions and computer-related
fraud, and by conducting computer forensic examinations. Other proactive ini-
tiatives focus on determining instances of procurement fraud, theft of property,
Government credit card abuse, and fraud in Federal programs.




                                                                                                5
                                                                     October 1, 2007 – March 31, 2008
                   OIG GENERAL COUNSEL ACTIVITIES
                   Regulatory Review

                   Pursuant to the Inspector General Act, 5 U.S.C. App. 3, Section 4(a)(2), OIG reviews
                   existing and proposed legislation, regulations, policy, and implementing Manage-
                   ment Directives, and makes recommendations to the agency concerning their
                   impact on the economy and efficiency of agency programs and operations.

                   From October 1, 2007, through March 31, 2008, OIG reviewed more than 250
                   agency documents, including approximately 160 Commission papers (SECYs),
                   Staff Requirements Memoranda, and 75 Federal Register Notices, regulatory
                   actions, and statutes.

                   To effectively track the agency’s response to OIG regulatory review comments,
                   this office requests written replies within 90 days with either a substantive reply
                   or status of issues raised by OIG.

                   During this reporting period, four significant comments were provided to the
                   agency and are summarized below. In each case, the agency replied with respon-
                   sive comments.

                   	   The agency proposed a rule, “Expansion of the National Source Tracking
                       System.” (The purpose of the system is to track certain sealed radioactive
                       sources which would require licensees to report information on the manu-
                       facture, transfer, receipt, or disposal of these sources.) The National Source
                       Tracking System was the subject of two recent OIG audits. Outstanding issues
                       identified in those audits were not resolved at the time the rule was proposed.
                       These include receipt of recommendations for appropriate tracking levels and
                       quantities of radioactive materials and the need for a framework for evaluat-
                       ing options and alternatives to adequately address security. As a result, OIG
                       related that the timing of the rule was potentially premature. The agency
                       response advised that initiation of the rule was deemed prudent in the over-
                       all context of this health and safety issue, and that flexibility in the processes
                       and software systems contemplated would allow for inclusion of additional
                       sources as a separate matter. Further, security concerns were considered as an
                       initial consideration for later analysis, and the timing of the rulemaking was
                       a logical fit with the increased controls evident in the Agreement States.

6
NRC OIG Semiannual Report
	   Draft Management Directive 8.14, “Agency Action Review Meeting,” ad-
    dressed the major issues related to the NRC’s practice for its senior managers
    to conduct an annual Agency Action Review Meeting. This meeting includes
    an overview of the performance of operating reactors, fuel cycle and other
    materials licensees, industry trends, and the effectiveness of NRC’s oversight
    process. The clarifications to the draft directive suggested by OIG were minor,
    and the agency advised that, after delay to allow for development of more
    specific criteria, a subsequent draft will be provided for review.

	   OIG reviewed a proposed “No Fear Act” training module which, as devel-
    oped, provided comprehensive discussion on the most important aspects
    of this topic. Besides suggesting that specific examples of relevant conduct
    be avoided, OIG also suggested inclusion of the whistleblower protection
    section of the Inspector General Act, and elimination of superfluous infor-
    mation. The agency adopted the OIG comments in the final version of the
    training module.

	   In addition, OIG provided substantive suggestions to the agency Annual Eth-
    ics Training syllabus. Tied to weaknesses identified in a recent investigation,
    OIG suggested emphasis and focus on the
    need for explicit directions to employees seek-
    ing employment in the private sector. The
    additional detail in this part of the training
    syllabus created a more robust annual ethics training
    by the agency Designated Agency Ethics Official.

SPECIAL FEATURE ARTICLE
Follow-up to Report on NRC’s Oversight of
Byproduct Materials

On March 30, 2007, OIG issued its Summary Report
and Perspectives on Byproduct Material Security and      Gamma Knife.
Control. The report sought to synthesize the findings of
previous OIG and Government Accountability Office (GAO) audits and investi-
gations to provide a more complete perspective of NRC’s approach to byproduct
material security and control. However, the work published by OIG and GAO,


                                                                                                7
                                                                     October 1, 2007 – March 31, 2008
                   as a whole, painted a picture of NRC efforts that are incomplete, especially with
                   regard to taking a comprehensive look inwards at its own business and regula-
                   tory processes, which would include conducting a vulnerability assessment of
                   the agency’s material licensing and tracking programs.

                   As the Nation’s authority on radioactive material, OIG recognized that NRC could
                   face continued difficulties in convincing critics and concerned onlookers of the
                   appropriateness of its approach towards byproduct material security. However,
                   OIG found no evidence that the agency sought an independent assessment of the
                   risks and consequences associated with the malevolent use of byproduct mate-
                   rial. OIG therefore recommended that the agency convene an independent panel
                   of experts external to the agency to identify agency vulnerabilities concerning
                   NRC’s material licensing and tracking programs and validate the agency’s ongo-
                   ing byproduct material security efforts.

                   Subsequent to OIG’s report, GAO conducted an undercover investigation that
                   validated the vulnerability concerns previously voiced in the OIG report. GAO
                   easily obtained an NRC license under false pretense by exploiting some of the
                   very weaknesses in the NRC licensing process that OIG had earlier discussed with
                   NRC officials. For example, GAO was able to gather all necessary information to
                   produce a credible license application. Once the application was submitted, the
                   GAO team was able to anticipate all of the license review actions the NRC was
                   going to perform when processing the application, because the agency outlined
                   the process in publicly-available guidance.

                   In October 2007, the Commission chartered an Independent External Review
                   Panel to address issues raised by the GAO investigation. Two of the specific
                   charter areas included (1) listing vulnerabilities concerning NRC’s licensing and
                   tracking programs for import, export, specific and general licensees, and (2) vali-
                   dating NRC’s ongoing material security efforts. The Panel issued its final report
                   on March 11, 2008, and made 13 recommendations to address vulnerabilities in
                   NRC’s oversight of byproduct materials licensing and security.




8
NRC OIG Semiannual Report
OTHER ACTIVITIES
NRC OIG Receives PCIE Award for Excellence

In 2007, the President’s Council on Integrity
and Efficiency and the Executive Council on
Integrity and Efficiency awarded an OIG audit
team the prestigious Award for Excellence.
The team was recognized for exceptional
performance in identifying weaknesses and
recommending enhancements to the program
used by NRC to evaluate the performance of
nuclear power plants security efforts. The
team consisted of Beth Serepca, Shyrl Coker,
David Ditto, and Rebecca Underhill.

The events of September 11, 2001, showed
that terrorists are willing to die in efforts to
wreak as much destruction and death as pos- The Security and Information Management Au-
sible, and that major terrorist events would     dit Team receives its 2007 PCIE/ECIE Award for
take place in the United States. This new Excellence.  Pictured left to right are Rebecca J.
realization caused a marked change in how Underhill, Senior Auditor; Shyrl A. Coker, Audit
this country perceives the threat to its in- Manager; Hubert T. Bell, Inspector General; Beth
frastructure and caused it to rethink earlier    H. Serepca, Team Leader; Stephen D. Dingbaum,
assumptions about the possible threats to the Assistant Inspector General for Audits; David C.
nuclear power plants that are regulated by       Ditto, Senior Management Analyst; and David C.
NRC. The work conducted by the audit team Lee, Deputy Inspector General.
successfully challenged long-held agency as-
sumptions that nuclear power plants were so hardened that terrorists would not
be interested in attacking them. Secondly, the team showed that NRC’s security
inspection program needs improvement to ensure that nuclear power plant se-
curity is at a high standard.

This review found that NRC’s security training program needs improvement to
ensure that key personnel have the appropriate knowledge and information to
complete the inspection program. Specifically, the inspectors are not receiving
relevant training or refresher courses, certification of inspectors is inconsistent,

                                                                                                 9
                                                                      October 1, 2007 – March 31, 2008
                   non-security staff with oversight responsibility are not receiving security training,
                   and the training program has not been updated.

                   In addition, the team found that the depth of inspection review guidance is lack-
                   ing. Inspectors examine a prescribed number of specific security program re-
                   quirements to assess each inspectable area at a nuclear power plant. However,
                   NRC security inspectors employ subjective approaches to examine each of these
                   requirements. NRC does not provide explicit guidance on what constitutes an
                   adequate review of each requirement which can result in inspections that vary
                   in scope and depth.

                   The work conducted by the auditors successfully countered the belief that more
                   training and guidance was not needed because no nuclear power plant had ever
                   been successfully attacked. The audit team’s work was recognized for its contribu-
                   tion to assisting the agency to better meet the public health, safety and security
                   mission.




10
NRC OIG Semiannual Report
                                                                                   AUDITS
To help the agency improve its effectiveness and efficiency during this period, OIG
completed 9 financial and performance audits or evaluations that resulted in nu-
merous recommendations to NRC management. OIG also analyzed 2 contract
audit reports.

AUDIT SUMMARIES
Results of the Audit of the Nuclear Regulatory Commission’s Financial
Statements for Fiscal Years 2007 and 2006

OIG Strategic Goal: Corporate Management

The Chief Financial Officers Act requires OIG annually to audit NRC’s principal
financial statements. In addition, the audit evaluated the effectiveness of inter-
nal controls over financial reporting and the agency’s compliance with laws and
regulations.

Audit Results:

Financial Statements

•	 The auditors expressed an unqualified opinion on the agency’s FY 2007 and
   2006 financial statements.

Internal Controls

•	 The auditors expressed a qualified opinion on the agency’s internal controls.

•	 The auditors cited information systems security controls as a continuing ma-
   terial weakness. The material weakness results from the Federal Information
   Security Management Act (FISMA) independent evaluation for FY 2007.
   This evaluation identified significant deficiencies concerning certification
   and accreditation and annual contingency plan testing requirements.

•	 The auditors cited NRC’s Fee Billing System as a significant deficiency.

Compliance with Laws and Regulations

•	 The auditors reported information systems security controls as a substantial


                                                                                             11
   noncompliance with the Federal Financial Management Improvement Act


                                                                     October 1, 2007 – March 31, 2008
                        (FFMIA). Office of Management and Budget Bulletin No. 07-04, Audit Require-
                        ments for Federal Financial Statements, clarified that “significant deficiencies
                        found under FISMA must also be reported as a material weakness under the
                        Federal Managers’ Financial Integrity Act and as a lack of substantial compli-
                        ance under FFMIA if related to financial management systems.” (Addresses
                        Management Challenge #6)

                   Audit of NRC’s Alternative Dispute Resolution Program

                   OIG Strategic Goal: Safety

                   Alternative Dispute Resolution (ADR) is a term that refers to a number of pro-
                   cesses, such as mediation, which can be used to resolve disputes between parties.
                   Through the Office of Enforcement (OE), NRC developed a pilot program to
                   evaluate whether the use of ADR could provide greater flexibility in the enforce-
                   ment process, more timely and economical resolution of issues, more effective
                   outcomes, and improved relationships. NRC offers two types of enforcement-
                   related ADR — early1 and post-investigative.2 To reduce any perceived bias,
                   OE contracted with the Institute on Conflict Resolution at Cornell University
                   (Cornell) to act as the intake neutrals3 and to provide mediators for NRC’s ADR
                   pilot program. NRC conducted the ADR pilot program from October 2004
                   through December 2005, offering post-investigative ADR to 43 offenders. Of
                   those, 16 agreed to use ADR and all reached resolution.

                   The objective of this audit was to determine if the enforcement-related ADR
                   program is complete and ready for full implementation.

                   Audit Results:

                   Despite overall ADR participant and other external stakeholder satisfaction with
                   the post-investigative ADR process, the ADR program is not complete or ready

                   1
                     The early ADR process occurs between an individual and his/her employer prior to NRC’s Office of Inves-
                   tigations performing an investigation based on an individual’s claim of discrimination.
                   2
                    The post-investigative ADR process, between NRC and an offender (individual, licensee, or organization
                   subject to NRC jurisdiction), is only available after the Office of Investigations completes an investigation
                   and the agency decides to pursue enforcement.
                   3
                    Per the ADR Act, a “neutral” means an individual who, with respect to an issue in controversy, functions


12
                   specifically to aid the parties in resolving the controversy.



NRC OIG Semiannual Report
for full implementation because of weaknesses in the program’s guidance and
management controls. Specifically,

•	 the process for follow-up and closure of confirmatory orders is unclear,

•	 pertinent NRC offices are involved on an ad hoc basis,

•	 preparation of support documentation is inconsistent, and

•	 complete case information is unavailable to all enforcement specialists.

Until complete policy and procedures are in place, NRC cannot ensure long-term
success of the overall enforcement-related ADR program. (Addresses Manage-
ment Challenge #3)

NRC’S Planned Cybersecurity Program

OIG Strategic Goal: Security

Cybersecurity refers to the branch of security that protects information tech-
nology (IT) infrastructure. IT infrastructure encompasses not only the public
internet, but also the less visible systems and connections of the Nation’s critical
infrastructures, such as nuclear power plants and electric power distribution
grids. Cybersecurity is increasingly important to the nuclear power industry as
plants upgrade from analogue to digital control systems, which are vulnerable to
attacks by criminals and foreign governments. These cyber
attacks can temporarily disrupt computer networks or, more
seriously, cause failure of public services. According to the
U.S. Central Intelligence Agency, for instance, extortionists
recently penetrated computer systems of utility companies
outside the United States and caused power outages that af-
fected multiple cities.

Audit Results:

OIG identified an issue that could adversely affect NRC’s oversight of licensees’
cybersecurity programs for nuclear power plants. In particular, although NRC
is making progress in developing cybersecurity regulations and a corresponding
inspection program, it lacks a clear plan for the inspection program. In particular,

                                                                                              13
agency management has not determined:

                                                                      October 1, 2007 – March 31, 2008
                   •	 respective roles of agency staff and contractors in conducting cybersecurity
                      inspections,

                   •	 staff requirements for cybersecurity inspections and headquarters support,
                      and

                   •	 resources needed for initial training of cybersecurity inspectors, and for follow-
                      on training to maintain technical proficiency.

                   Without robust cybersecurity oversight, NRC faces increased risk that cyber
                   attacks, human error, or technological failure could compromise IT systems
                   that are critical to nuclear power plant operations. (Addresses Management
                   Challenge #2)

                   Audit of NRC’s Contract for Alternative Dispute Resolution Services

                   OIG Strategic Goal: Corporate Management

                   On September 27, 2006, NRC awarded a $334,400 fixed-price, sole-source contract
                   to Cornell to provide neutral services supporting the enforcement ADR program
                   for a 2-year period. The contract provisions permit a three-year extension for an
                   $893,000 total contract cost. ADR is a term that refers to a number of processes,
                   such as mediation and facilitated dialogues, that can be used to assist parties in
                   resolving disputes. ADR is a voluntary process that often involves the use of a
                   skilled third party neutral.

                   The objective of this audit was to determine if NRC’s contract for ADR services
                   had the appropriate controls in place.

                   Audit Results:

                   While the contract with Cornell has been used for more than a year for a number
                   of ADR cases, NRC does not have the ability to provide effective contract oversight.
                   This is caused by deficiencies in the contract such as inadequate billing require-
                   ments and an insufficient statement of work. Furthermore, there is minimal
                   contract management over the contract. Thus, the agency’s ability to prevent
                   procurement fraud and abuse is reduced. In addition, there is the appearance of
                   a conflict of interest due to the NRC’s project officer’s association with a Cornell
                   workshop. (Addresses Management Challenge #6)

14
NRC OIG Semiannual Report
Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers

OIG Strategic Goal: Security

Licensees take various measures to ensure that their security officers are mentally
and physically fit, professionally competent, and sufficiently trustworthy to carry
out their duties at nuclear power plants. These measures are designed to comply
with various NRC regulations governing employee conduct, health, and work
requirements. NRC exercises oversight of licensees’ security officers through the
physical protection program of the Reactor Oversight Process, as well as regional
inspections concerning specific problems or extraordinary events and through
force-on-force exercises.

The audit objective was to assess NRC’s oversight of security officers employed
by licensees to protect nuclear power plants.

Audit Results:

NRC staff conducts security oversight activities in accordance with agency stan-
dards; however, OIG found two issues that NRC management should address to
improve agency performance:

•	 Regulations for licensees’ behavioral observa-
   tion programs lack detailed implementation
   guidance and are not integrated with guidance
   for related security programs.

•	 Advance notification of all baseline security
   inspections could compromise the accuracy
   of NRC’s assessments of licensee fitness-for-
   duty performance.

These factors compromise NRC’s oversight of li-
                                                       Security personnel participating in weapons training.
censee behavioral observation programs, thereby
increasing security risks to nuclear power plants.
By enhancing behavioral observation program oversight and incorporating limited-
scope, short notice inspections into the baseline security inspection program, NRC
can improve its oversight of licensees’ security officers. (Addresses Management


                                                                                             15
Challenges #1 and 3)


                                                                     October 1, 2007 – March 31, 2008
                   Audit of NRC’s Power Uprate Program

                   OIG Strategic Goal: Safety
                  NRC regulates the maximum power level at which a commercial nuclear power
                  plant may operate. The process of increasing the maximum power level at which
                                                a plant may operate is called a power uprate. Li-
                                                censees seek permission to perform a power uprate
                                                by submitting a license application amendment to
                                                NRC. Since 1977, NRC has approved 118 power
                                                uprates, resulting in a combined increase of over
                                                5,200 megawatts electric to the Nation’s electric
                                                generating capacity, the equivalent of adding 3 to
                                                4 additional power plants. NRC anticipates as
                                                many as 24 power uprate applications during the
                                                next 5 years. Some of these future power uprate
                                                requests may be for plants that have been approved
                                                or may seek approval for a license renewal to op-
                                                erate plants for 20 additional years beyond their
Turbine at a nuclear power plant.               original 40-year license term.
                   The objective of this audit was to examine the process for reviewing and approv-
                   ing power uprate amendment applications.
                   Audit Results:
                   The process for reviewing and approving power uprate amendment applications
                   is generally the same as that for other types of license amendments. The audit,
                   however, identified program matters needing NRC management attention as the
                   license amendment process is applied to the uprates. Specifically:
                   •	 The power uprate inspection procedure has been implemented and documented
                      inconsistently. NRC staff have an inconsistent understanding of the power
                      uprate inspection procedure’s use, implementation, and documentation, and
                      some staff are not aware of the procedure.
                   •	 The circulation and written quality of power uprate safety evaluations needs
                      improvement.
                   As a result, stakeholders are unable to adequately monitor power uprate inspections
                   or to adequately comprehend NRC’s basis for approving an uprate application.

16                 (Addresses Management Challenges #3 and #4)

NRC OIG Semiannual Report
AUDITS IN PROGRESS
Audit of NRC’s Enforcement Program
OIG Strategic Goal: Safety

The NRC’s enforcement jurisdiction is drawn from the Atomic Energy Act of
1954, as amended, and the Energy Reorganization Act of 1974, as amended. In
recognition that violations occur in a variety of activities and have varying levels
of significance, the Commission set out to create an enforcement framework
with graduated sanctions to reflect this diversity. The Commission’s first public
statement of policy on enforcement (the first Enforcement Policy) was published
in 1980. Although the policy statement has changed several times, two goals of
the enforcement program remain unchanged: to emphasize the importance of
compliance with regulatory requirements and to encourage prompt identification,
and prompt, comprehensive correction of violations. The enforcement program
is also intended to meet the agency’s performance goals.

Violations are identified through inspections and investigations. All violations
are subject to civil enforcement action and may also be subject to criminal pros-
ecution. After an apparent violation is identified, it is assessed in accordance
with the Commission’s Enforcement Policy. Because the policy statement is not
a regulation, the Commission may deviate from the Enforcement Policy as ap-
propriate under the circumstances of a particular case.

The objectives of this audit are to determine how NRC assesses (1) the signifi-
cance of violations and (2) the level of enforcement action to be taken. (Addresses
Management Challenges #1 and #3)

Audit of NRC’s Continuity of Operations Plan

OIG Strategic Goals: Safety and Security

To ensure that essential NRC services are available during an emergency (such
as terrorist attacks, severe weather, or building level emergencies), Federal
agencies are required to develop continuity of operations (COOP) plans. Federal
Emergency Management Agency (FEMA) guidance, Federal Preparedness
Circular 65, identifies elements of a viable COOP capability, including the

                                                                                              17
requirement that agencies identify their essential functions.


                                                                      October 1, 2007 – March 31, 2008
                   The objectives of this audit are to evaluate the extent that NRC has identified and
                   maintains essential functions during an emergency and to determine if NRC’s
                   COOP plan follows FEMA guidelines. (Addresses Management Challenge #1)

                   Audit of NRC’s AID-Funded Activities

                   OIG Strategic Goal: Corporate Management

                   NRC receives Freedom Support Act (FSA) funds from the U.S. Agency for Interna-
                   tional Development (AID) to support provisions of nuclear regulatory safety and
                   security assistance to the regulatory authorities of Armenia, Georgia, Kazakhstan,
                   Russia, and Ukraine. These funds support activities that include strengthening
                   regulatory oversight of:

                   •	 the startup, operation, shutdown and decommissioning of Soviet-designed
                      nuclear power plants;
                   •	 the safe and secure use of radioactive materials; and
                   •	 accounting for and protection of nuclear materials.

                   NRC has received approximately $53.3 million in FSA funds from FY 1992 through
                   FY 2007. The Office of International Programs has responsibility for NRC’s use
                   of FSA funds. This responsibility includes the coordination within NRC, with
                   other U.S. Governmental agencies involved with assistance activities, and with
                   other international donors.

                   The objectives of this audit are to determine if the management controls over
                   the use of AID funds are adequate and whether NRC’s corrective actions result-
                   ing from OIG’s recommendations in Audit Report OIG-02-A-04, dated
                   December 3, 2001, are being adequately implemented. (Addresses Management
                   Challenge #6)

                   Audit of NRC’s Accounting and Control Over Time and Labor Reporting

                   OIG Strategic Goal: Corporate Management

                   Salaries and benefits for NRC’s approximately 3,300 employees totaled $424 mil-
                   lion in FY 2006. Approximately 90 percent ($382 million) of the salaries and
                   benefits are recovered through billings to NRC licensees.

18
NRC OIG Semiannual Report
NRC’s time and labor system is intended to collect data to adequately support
employees’ pay and show the number of hours employees are working and are in
leave status. The system provides data in support of entitlements to overtime pay,
premium pay, and compensatory time earned and used. An accurate and reliable
system of collecting time and labor data is necessary to provide a basis for:

•	 allocating employees’ time to the agency’s program and performance
   objectives,

•	 assessing NRC fees, and

•	 financial reporting.

The objectives of this audit are to determine whether (1) NRC has established
and implemented internal controls over time and labor reporting to provide rea-
sonable assurance that hours worked in pay status and hours absent are properly
reported, and (2) the time and labor system can be easier and more efficient to
use. (Addresses Management Challenge #6)

Audit of NRC’s FY 2008 Financial Statements

OIG Strategic Goal: Corporate Management

Under the Chief Financial Officers Act and the Government Management and
Reform Act, OIG is required to audit the financial statements of the NRC. OIG
is auditing NRC’s financial statements in accordance with applicable auditing
standards. The audit will express opinions on the agency’s financial statements
and internal controls, review compliance with applicable laws and regulations,
review the performance measures for compliance with Office of Management
and Budget guidance, and review the controls in the NRC’s computer systems
that are significant to the financial statements. In addition, OIG will measure
the agency’s improvements by assessing corrective action taken on prior audit
findings. (Addresses Management Challenge #6)




                                                                                             19
                                                                     October 1, 2007 – March 31, 2008
INVESTIGATIONS
                   During this reporting period, OIG received 95 allegations, initiated 35 investigations
                   and closed 29 cases. In addition, OIG made 18 referrals to NRC management and
                   7 to the Department of Justice.

                   INVESTIGATIVE CASE SUMMARIES
                   NRC’s Oversight of Hemyc Fire Barriers

                   OIG Strategic Goal: Safety

                   OIG completed a special inquiry in response to concerns pertaining to Hemyc
                   fire barriers. Hemyc is a fire barrier manufactured by Promatec, Inc., that has
                   been installed in operating nuclear power plants (NPPs) since the 1980s and is
                   currently installed at 15 nuclear reactors in the United States. Recent concerns
                   focused on Hemyc’s failure to provide the level of protection expected for a 1-hour
                   rated fire barrier during confirmatory testing sponsored by NRC in 2005. Ad-
                   ditional concerns pertained to whether NRC staff were aware of problems with
                                               Hemyc prior to 2005 and whether the staff acted to
                                               address these problems.

                                                NRC requires fire barrier manufacturers to conduct
                                                or sponsor tests that establish that their barrier ma-
                                                terials meet either a 1-hour or 3-hour rating period.
                                                These time durations indicate the number of hours
                                                a fire barrier protects equipment from fire damage.
                                                NRC does not conduct tests to qualify fire barriers for
                                                use in NPPs but can conduct confirmatory testing to
                                                identify potential problems with the barriers.

                                                In 1983, NRC approved the installation of Hemyc.
                                                Hemyc has since been used in a number of NPPs to
Shearon Harris Nuclear Power Plant.
                                                provide protection of electrical cables from fire. In
                                                1994, NRC received information pertaining to a small-
                 scale fire endurance test, sponsored by the agency, that indicated problems with
                 Hemyc’s fire endurance. However, OIG found that NRC did not communicate
                 the results of the test to licensees, nor did the agency conduct any follow-up to
                 the test.


20
NRC OIG Semiannual Report
In November 1999, an NRC inspection identified potential problems with Hemyc
fire barriers at Shearon Harris NPP. Consequently, in August 2000, NRC con-
cluded that the information available from previous fire endurance tests proved
inconclusive to qualify Hemyc as a 1-hour fire rated barrier. However, NRC did
not require licensees to take corrective action.

After August 2000, NRC initiated a program to perform NRC-sponsored confir-
matory testing of the Hemyc fire barriers. The testing, which was not completed
until 2005, resulted in a finding that the Hemyc fire barrier failed to perform for
1-hour as designed. However, in April 2005, when NRC published the results of
the tests in an NRC information notice to all licensees, it did not require licensees
to take any action or provide a written response.

OIG also found that NRC was not timely in fulfilling a commitment made to
Congress in 1993 to assess and resolve problems with fire barriers. In March 1993,
after problems with another fire barrier were identified, a former NRC Chair-
man provided testimony to the U.S. House of Representatives Subcommittee on
Oversight and Investigations. His testimony included a commitment to conduct
assessments of all fire barriers used to protect electrical cables in NPPs to identify
improvements needed to have these fire barriers meet NRC requirements. It was
not until April 2005 that the NRC first informed licensees of Hemyc’s failure to
perform as an NRC-qualified fire barrier, and not until April 2006 that NRC first
requested licensees to take actions to resolve problems with Hemyc fire barriers
installed at their facilities. As of December 2007, no fire endurance tests had been
conducted to allow NRC to qualify Hemyc as an approved 1-hour or 3-hour fire
barrier for installation at NPPs. (Addresses Management Challenge #1)

NRC Involvement in Improper Whistleblower Settlement Agreement

Strategic Goal: Corporate Management

OIG completed an investigation pertaining to NRC’s involvement in an improper
settlement agreement between a whistleblower and an NRC nuclear power plant
licensee. This investigation identified shortcomings by NRC staff that contributed
to the improper settlement agreement and, consequently, may have adversely
impacted the licensee. Additionally, OIG identified a lack of understanding by
several NRC offices with respect to the NRC staff ’s role in the Alternative Dispute
Resolution (ADR) process.

                                                                                                21
                                                                        October 1, 2007 – March 31, 2008
                   OIG determined that the licensee and the whistleblower entered into a settlement
                   agreement in 2007 that purported to meet the intents and purposes of Early ADR
                   under the NRC ADR Program. A draft of this settlement agreement was reviewed
                   by an NRC Regional Counsel. However, because the Office of Investigations (OI)
                   had initiated an investigation into the discrimination allegations on July 7, 2006,
                   a fact known to the licensee’s counsel and the Regional Counsel, this settlement
                   agreement did not comply with the most basic requirement of Early ADR (i.e.,
                   Early ADR is a means to resolve a discrimination complaint “prior to an OI
                   investigation.”) The Regional Counsel’s failure to clearly articulate the applica-
                   bility of NRC’s Early ADR policy may have caused the licensee to settle with the
                   whistleblower for $185,000 based on a belief that the settlement agreement would
                   be viewed by NRC as Early ADR, thereby precluding an OI investigation.

                   OIG found that the Regional Counsel advised the licensee counsel that the agree-
                   ment did not contain any potentially restrictive language that would violate Title
                   10 Code of Federal Regulations (CFR) 50.7, “Employee Protection.” 10 CFR 50.7
                   provides that settlement agreements may not prohibit, restrict, or otherwise
                   discourage employees from engaging in certain protected activities. However,
                   the settlement agreement required the whistleblower to send a letter to OI stating
                   that he did not wish to pursue his discrimination complaint “in any forum.” This
                   appears inconsistent with the language in 10 CFR 50.7 in that it discourages and
                   may even prohibit him from engaging in a protected activity. It also conflicts with
                   the whistleblower’s expressed interest in having OI continue its investigation.

                   OIG found that the licensee counsel, the NRC Office of Enforcement (OE), and
                   the NRC Office of the General Counsel (OGC) had a different understanding of
                   OGC’s role and responsibility in the ADR process. The licensee counsel believed
                   that the NRC Regional Counsel was speaking for OGC when offering an opinion
                   on the settlement agreement. The OE Senior Enforcement Specialist and the
                   OGC Deputy Counsel believed that only OGC could officially review a settle-
                   ment agreement. The OGC attorney responsible for the ADR Program stated
                   there was no policy that requires settlement agreements be reviewed by OGC
                   and that in most cases the Regional Counsel conducts the review. (Addresses
                   Management Challenge #3)




22
NRC OIG Semiannual Report
Misuse of NRC E-Mail by a Contractor Employee

Strategic Goal: Corporate Management

OIG completed an investigation concerning misuse of NRC e-mail by an Office
of Information Services contractor employee. The investigation was initiated
based on information indicating that the employee had placed a computer moni-
toring program on a computer owned by a private, local company and assigned
to the NRC contractor’s wife, who worked for the company. According to the
information, the wife’s e-mails and web-browsing activity was captured by the
monitoring program. The program then automatically and clandestinely sent
reports, via e-mail, containing this information to the NRC contractor employee’s
NRC e-mail account.

Interception and disclosure of wire, oral, or electronic communications is prohibited
under Title 18, Section 2511, of the U.S. Code. In addition, NRC’s contract with
the contractor company specifies that the contractor’s employees are prohibited
from engaging or using Government IT equipment, services, or access for any
personal use, misuse, abuse, or any other unauthorized usage.

Through contact with the manufacturer of the computer monitoring software, OIG
was able to verify that the NRC contractor employee had purchased, registered,
and installed the software monitoring program. OIG review of NRC computer
e-mail and network logs confirmed the employee had received 288 e-mails, in his
assigned NRC e-mail account, which contained the reports sent by the monitor-
ing program. (Addresses Management Challenge #3)

Incorrect Deductions from NRC Payments to Contractor

Strategic Goal: Corporate Management

OIG conducted an investigation into claims by an NRC contractor, Advanced
Systems Technology and Management, Inc. (AdSTM), that unexplained deduc-
tions were being taken from NRC invoice payments. In late September 2007,
AdSTM notified NRC staff that it had not received full payments for the prior
eight invoices the company had issued to NRC.




                                                                                               23
                                                                       October 1, 2007 – March 31, 2008
                   OIG learned that AdSTM’s latest contract to provide support to the Office of
                   International Programs became effective in January 2007. Since that time, eight
                   payments received by AdSTM from NRC in response to invoices were incorrect,
                   and, as a result, NRC owed AdSTM approximately $196,000.

                   During its investigation, OIG found that when AdSTM’s newest contract payment
                   information was entered into NRC’s payment database, an NRC payment clerk
                   mistakenly selected another company instead of AdSTM as the name of the NRC
                   contractor. When the wrong company was entered into the financial accounting
                   and payment system, the corresponding (and therefore incorrect) tax identifica-
                   tion number was also entered. The payment clerk then entered the correct bank
                   information (routing and account numbers) for AdSTM. The error caused the
                   Department of Treasury to withhold monies from AdSTM that were supposed
                   to be garnished from the other company.

                   NRC staff has corrected the error and paid AdSTM the monies owed to them.
                   Additionally, NRC staff has analyzed its current payment process to ensure this
                   type of mistake does not recur. (Addresses Management Challenge #3)

                   NRC Oversight of Steel Liner at Oyster Creek Nuclear
                   Generating Station

                   Strategic Goal: Safety

                   OIG conducted an investigation concerning the sufficiency of the steel contain-
                   ment liner at Oyster Creek Nuclear Generating Station and whether an NRC staff
                   member was pressured by NRC management to conclude the liner was sufficient.
                   The containment liner is a fission product barrier, designed to prevent the release
                   of radioactive materials to the environment in the event of a reactor accident
                   where there is core damage.

                   This investigation was initiated after OIG learned that two U.S Congressmen
                   representing the State of New Jersey appealed to the NRC Atomic Safety and
                   Licensing Board Panel (ASLBP) to review NRC’s claim that Oyster Creek’s steel
                   containment liner met design requirements. A New Jersey newspaper reported
                   that an Office of Nuclear Reactor Regulation staff member testified before the



24
NRC OIG Semiannual Report
ASLBP that the steel containment liner did not meet American Society of Me-
chanical Engineers (ASME) structural integrity requirements because of corrosion
that had occurred since the barrier was installed. It
was further reported in the newspaper that because
of management pressure, the NRC staff member
provided the ASLBP an addendum to his original
testimony in which he concluded the steel con-
tainment liner was sufficient and met regulatory
standards.

This investigation determined that the NRC staff
member did not change his ASLBP testimony or
conclusions regarding the structural integrity of the
steel containment liner. The staff member provided
initial written testimony to the ASLBP that con-
cluded the steel containment liner was structurally   Oyster Creek Nuclear Power Plant.
sufficient and met regulatory standards. He supplied
an addendum to his original testimony in an effort to clarify and strengthen his
original written testimony.

This investigation further determined that NRC’s assessment of the structural
integrity of the steel containment liner was based on technical analyses by quali-
fied staff members that considered known conditions of the liner. NRC staff
concluded that the liner’s condition was adequate to demonstrate that it would
perform safely. The staff determined that there was no danger of the liner buck-
ling (structural failure) because of excessive corrosion even with supporting sand
removed from the outside of the liner. NRC staff has been aware of the corrosion
issue since 1993 and has monitored the results of biennial licensee inspections
that measured the thickness of the entire container liner to ensure it remained at
structurally safe levels. Additionally, OIG determined that because the liner was
designed and built prior to the current ASME standards, there was no require-
ment that the liner meet these standards.

The ASLBP ruled in favor of the licensee on December 18, 2007, and con-
firmed that the structural integrity of the steel containment liner was sufficient.
(Addresses Management Challenge #1)


                                                                                             25
                                                                     October 1, 2007 – March 31, 2008
STATISTICAL SUMMARY OF
OIG ACCOMPLISHMENTS
         INVESTIGATIVE STATISTICS
         Source of Allegations — October 1, 2007, through March 31, 2008

                                     NRC Employee                                               18
                                  NRC Management                                      9
                       Other Government Agency                           5
                                          Intervenor                              7
                                      General Public                                           17
                             OIG Investigation/Audit                                       16
                                 Regulated Industry                          6
                                        Anonymous                                         15
                                    NRC Contractor             2


                       Allegations resulting from the Hotline: 29                          Total: 95




         Disposition of Allegations — October 1, 2007, through March 31, 2008

                                                Total                                           95
                             Closed Administratively                         30
                     Referred for OIG Investigation                          32
            Referred to NRC Management and Staff                    18
                       Referred to External Agency         3
                            Pending Review or Action       3
                        Correlated to Existing Case            9




26
NRC OIG Semiannual Report
STATUS OF INVESTIGATIONS
DOJ Referrals . .................................................................................................... 7
DOJ Pending........................................................................................................ 1
DOJ Declinations ............................................................................................... 9
State Referrals ..................................................................................................... 1
State Declinations ............................................................................................... 1
NRC Administrative Actions:
	 Terminations and Resignations ................................................................. 4
	 Suspensions and Demotions ...................................................................... 1
	 Counseling . .................................................................................................. 1


SUMMARY OF INVESTIGATIONS
Classification of 		           Opened 	 Closed 	 Cases In
Investigations	     Carryover	 Cases	   Cases	 Progress

Conflict of Interest	                                           3	                1	              3	              1
Internal Fraud	                                                 1	                0	              0	              1
External Fraud	                                                 6	                5	              5	              6
	False Statements	                                              2	                1	              3	              0
 	Misuse of Government Property	                                4	                5	              4	              5
  	Employee Misconduct	                                         4	                4	              5	              3
   	Management Misconduct	                                      1	                4	              2	              3
    Technical Allegations — Other	                              8	                9	              4	             13
    Proactive Initiatives	                                      2	                3	              0	              5
    Project	                                                   10	                1	              1	             10
    Theft	                                                      0	                1	              1	              0
    Event Inquiries	                                            1	                1	              1	              1
    			 Total Investigations	                                  42	               35	             29	             48




                                                                                                                                  27
                                                                                                          October 1, 2007 – March 31, 2008
                   AUDIT LISTINGS
                   Internal Program Audit and Special Evaluation Reports

                   Date	         Title	                                        Audit Number
                   03/28/2008	   Audit of NRC’s Power Uprate Program	          OIG-08-A-09
                   03/26/2008	   Memorandum Report: Audit of 	                 OIG-08-A-08
                   	             NRC’s Contract for Alternative Dispute
                   	             Resolution Services	
                   03/18/2008	   Audit of NRC’s Oversight of Licensees’ 	      OIG-08-A-07
                   	             Nuclear Security Officers	
                   03/18/2008	   Memorandum Report: NRC’s Planned 	            OIG-08-A-06
                   	             Cybersecurity Program	
                   12/19/2007	   Review of NRC’s Implementation of the 	       OIG-08-A-05
                   	             Federal Managers’ Financial Integrity Act
                   	             for Fiscal Year 2007	
                   12/12/2007	   Transmittal of the Independent 	              OIG-08-A-04
                   	             Auditors’ Report on the Condensed
                   	             Financial Statements of the Nuclear
                   	             Regulatory Commission	
                   12/14/2007	   Memorandum Report: Audit of NRC’s 	           OIG-08-A-03
                   	             Alternative Dispute Resolution Program	
                   11/15/2007	   Independent Auditors’ Report on the 	         OIG-08-A-02
                   	             U.S. Nuclear Regulatory Commission’s
                   	             Special-Purpose Financial Statements as of
                   	             September 30, 2007, and 2006, and for the
                   	             Years Then Ended
                   11/09/2007	   Results of the Audit of the United States 	   OIG-08-A-01
                   	             Nuclear Regulatory Commission’s Financial
                   	             Statements for Fiscal Years 2007 and 2006


28
NRC OIG Semiannual Report
CONTRACT AUDIT REPORTS
OIG	          Contractor/	                    Questioned	   Unsupported
Issue Date	   Contract Number	                  Costs	         Costs

10/16/07	     Numark Associates, Inc.	 0	                        0
	             NRC-03-07-036		

12/18/07	     Battelle Memorial Institute	        0	             0
	             Battelle Columbus Operations	
	             NRC-04-02-074




                                                                                     29
                                                             October 1, 2007 – March 31, 2008
AUDIT RESOLUTION ACTIVITIES
TABLE I
OIG Reports Containing Questioned Costs4
October 1, 2007, through March 31, 2008
	                                           	                                                Questioned	             Unsupported
	                                       Number of	                                              Costs	                  Costs
Reports	                                 Reports	                                             (Dollars)	              (Dollars)

A.	    For which no management decision
       had been made by the commencement
       of the reporting period	                                           1	                    $68,018	                     0

B.	    Which were issued during the
       reporting period	                                                  0	                         0	                      0

	      Subtotal (A + B)	                                                  1	                    $68,018	                     0

C.	    For which a management decision was
       made during the reporting period:

	      (i) 	 dollar value of disallowed costs	                            1	                    $68,018	                     0

	      (ii)	 dollar value of costs not disallowed	                        0	                         0	                      0

D.	    For which no management decision
       had been made by the end of the
       reporting period	                                                  0	                         0	                      0

E.	    For which no management decision was
       made within 6 months of issuance	                                  0	                         0	                      0

4
 Questioned costs are costs that are questioned by the OIG because of an alleged violation of a provision of a law, regulation, contract,
grant, cooperative agreement, or other agreement or document governing the expenditure of funds; a finding that, at the time of the
audit, such costs are not supported by adequate documentation; or a finding that the expenditure of funds for the intended purpose
is unnecessary or unreasonable.




30
NRC OIG Semiannual Report
TABLE II
OIG Reports Issued with Recommendations That Funds Be Put to Better Use5

	                                                                    Number of	            Dollar Value
Reports	                                                              Reports	              of Funds

A.	    For which no management decision	 0	 0
       had been made by the commencement
       of the reporting period			

B.	    Which were issued during the 	 0	                                                           0
       reporting period		

C.	    For which a management decision was	
       made during the reporting period:		

	       (i) 	 dollar value of recommendations	                             0	                      0
       	      that were agreed to by management

	       (ii) 	dollar value of recommendations 	                            0	                      0
        	 that were not agreed to by management

D.	    For which no management decision had	                               0	                      0
       been made by the end of the reporting
       period

E.	    For which no management decision was	 0	 0
       made within 6 months of issuance				



5
 A “recommendation that funds be put to better use” is a recommendation by the OIG that funds could be
used more efficiently if NRC management took actions to implement and complete the recommendation,
including: reductions in outlays; deobligation of funds from programs or operations; withdrawal of
interest subsidy costs on loans or loan guarantees, insurance, or bonds; costs not incurred by implementing
recommended improvements related to the operations of NRC, a contractor, or a grantee; avoidance of
unnecessary expenditures noted in preaward reviews of contract or grant agreements; or any other savings which are
specifically identified.



                                                                                                                     31
                                                                                      October 1, 2007 – March 31, 2008
         TABLE III
         Significant Recommendations Described in Previous Semiannual Reports on
         Which Corrective Action Has Not Been Completed

         Date	        Report Title	                                                  Number

         05/26/03	    Audit of NRC’s Regulatory Oversight of Special 	             OIG-03-A-15
         	            Nuclear Materials

         	            Recommendation 1: Conduct periodic inspections to
         	            verify that material licensees comply with material
         	            control and accountability (MC&A) requirements,
         	            including, but not limited to, visual inspections of
         	            licensees’ special nuclear material (SNM) inventories
         	            and validation of reported information.

         02/23/06	    Audit of the Development of the National Source 	            OIG-06-A-10
         	            Tracking System

         	            Recommendation 1: Before the NSTS rulemaking is
         	            finalized, conduct a comprehensive regulatory analysis
         	            for NSTS that explores other viable options, such as those
         	            in the Code of Conduct. The regulatory analysis should
         	            include an assessment of expanding materials tracked in
         	            NSTS to contain categories 3, 4, and 5; aggregation of
         	            sources; and bulk material.	

         03/16/06	    Audit of the NRC’s Byproduct Materials License 	             OIG-06-A-11
         	            Application and Review Process

         	            Recommendation 2: Modify the license application
         	            and review process to mitigate the risks identified in the
         	            vulnerability assessment.




32
NRC OIG Semiannual Report
09/26/06	   Evaluation of NRC’s Use of Probabilistic Risk 	                OIG-06-A-24
	           Assessment in Regulating the Commercial
	           Nuclear Power Industry

	           Recommendation 1: Develop and implement a
	           formal, written process for maintaining PRA models
	           that are sufficiently representative of the as-built,
	           as-operated plant to support model uses.

	           Recommendation 3: Conduct a full verification and
	           validation of SAPHIRE version 7.2 and GEM.




                                                                                            33
                                                                    October 1, 2007 – March 31, 2008
ABBREVIATIONS AND ACRONYMS
                   ADR	     Alternative Dispute Resolution
                   AdSTM	   Advanced Systems Technology and Management, Inc.
                   AID	     U.S. Agency for International Development
                   ASLBP	   Atomic Safety and Licensing Board Panel
                   ASME	    American Society of Mechanical Engineers
                   CFR	     Code of Federal Regulations
                   COOP	    continuity of operations plans
                   DOJ	     Department of Justice
                   FEMA	    Federal Emergency Management Agency
                   FFMIA	   Federal Financial Management Improvement Act
                   FISMA	   Federal Information Security Management Act
                   FSA	     Freedom Support Act
                   FY	      Fiscal Year
                   GAO	     U.S. Government Accountability Office
                   IAM	     Issue Area Monitor
                   IG	      Inspector General
                   IT	      information technology
                   NPP	     nuclear power plants
                   NRC 	    U.S. Nuclear Regulatory Commission
                   PRA	     Probabilistic Risk Assessment
                   OGC	     Office of the General Counsel (NRC)
                   OE	      Office of Enforcement (NRC)
                   OI	      Office of Investigations (NRC)
                   OIG	     Office of the Inspector General (NRC)

34
NRC OIG Semiannual Report
                               REPORTING REQUIREMENTS
The Inspector General Act of 1978, as amended (1988), specifies reporting require-
ments for semiannual reports. This index cross-references those requirements
to the applicable pages where they are fulfilled in this report.


CITATION	               REPORTING REQUIREMENTS	                                                PAGE

Section 4(a)(2)	        Review of Legislation and Regulations . ...............................6-7

Section 5(a)(1)	        Significant Problems, Abuses, and Deficiencies . .....11-16, 20-25

Section 5(a)(2) 	 Recommendations for Corrective Action ........................11-16

Section 5(a)(3) 	 Prior Significant Recommendations
	                 Not Yet Completed . ............................................................32-33

Section 5(a)(4) 	 Matters Referred to Prosecutive Authorities ........................ 27

Section 5(a)(5) 	 Information or Assistance Refused . ................................. None

Section 5(a)(6) 	 Listing of Audit Reports .......................................................... 28

Section 5(a)(7) 	 Summary of Significant Reports ...........................11-16, 20-25

Section 5(a)(8) 	 Audit Reports — Questioned Costs ..................................... 30

Section 5(a)(9) 	 Audit Reports — Funds Put to Better Use ............................ 31

Section 5(a)(10) 	 Audit Reports Issued Before Commencement
	                  of the Reporting Period for Which No
	                  Management Decision Has Been Made ................................ 32

Section 5(a)(11) 	 Significant Revised Management Decisions .................... None

Section 5(a)(12) 	 Significant Management Decisions With
	                  Which OIG Disagreed ........................................................ None




                                                                                                               35
                                                                                       October 1, 2007 – March 31, 2008
36
NRC OIG Semiannual Report
